/-,

'■>

(k

•V-''

No. 19- -■

SIM

IN THE

SUPREME COURT OF THE UNITED STATES

"Supreme Court, U.S.

FILED

AUG 0 7 2020
ANTONIO D. WILLIAMS ';
PETITIONER,
vs.
WILLIAM J. POLLARD
RESPONDENT.

ON PETITION FOR WRIT OF CERTIORARI
TO THE SEVENTH CIRCUIT COURT OF APPEALSc

PETITION FOR WRIT OF CERTIORARI

Appearing Pro Se
ANTONIO D. WILLIAMS;.
DODGE CORRECTIONAL INSTITUTION
P.O.BOX 700
WAUPUN, WISCONSIN, 53963

OFFICE OF THE CLERK

QUESTIONS PRESENTED FOR REVIEW
1.

Whether federal courts should or must consider the

restrictive standards for granting habaes relief under
the Antiterrorism and Effective Death Penalty Act of
1996, 110 Stat. 1214, 28 U.S.G. §2254(d), when deciding
whether the petitioner has made the "substantial showing
of the denial of a constitutional right" required for
issuance of the certificate of appealability prerequisite
to appeal from the denial of federal habaes relief under
28 U.S.C. §2254.
2.

Whether Williams was entitled to a certificate of

appealability on his claim that he was denied the effective
assistance of counsel due to appellate counsel"s failure
to appeal the following claim which was fully preserved
in the record:
Newly discoverd evidence based on the multiple
admissions both before and after trial by the
state's primary witness, Rosario Fuentez, that
his trial testimony against Williams was false
and that Williams in fact was not involved in
Fuentez's commission of the charged offense.
3. Whether Williams was entitled to a certificate of
appealability on his claim that he was denied the effective
assistance of counsel due to appellate counsel's failure
to argue the following claim in the court of appeals:
Reversal is appropriate in the interest of
justice on the grounds that the real controversy
was not fully tried because the jury was denied
evidence of Fuentez',s admissions that Williams
in fact was not involved in the charged offenses,
and that Fuentez had only claimed otherwise in
order to minimize the consequences of his own

i

criminal conduct.
PARTIES IN COURT BELOW
Other than the present petitioner and Respondent,

'

there were no other parties in the Seventh Circuit Court
of Appeals.

ii

•'.TABLE OF CONTENTS
QUESTIONS PRESNTED FOR REVIEW

i

PARTIES IN COURT BELOW,

ii

TABLE OF AUTHORITIES

iv.

ON PETITION FOR WRIT OF CERTIORARI ;.TO
THE SEVENTH CIRCUIT COURT OF APPEALS.

1

PETITION EOROWRIT.OF,CERTIORARI

1

OPINIONS' BELOW...............................

1

JURISDICTION

2

CONSTITUTIONAL PROVISIONS, STATUTES
AND RULES INVOLVED................................

2

STATEMENT OF CASE

4

State Charges and Trial..................
State Post-Conviction Proceedings
Federal Habeas Proceedings............
REASONS FOR ALLOWANCE OF THE WRIT

4
7
9
11

I.

SUPREME COURT REVIEW IS APPROPEIATE TO
CLARIFY WHETHER FEDERAL COURTS SHOULD OR
MUST CONSIDER THE RESTRICTIVE STANDARDS FOR
GRANTING HABEAS RELIEF UNDER AEDPA WHEN
DECIDING TO WHETHER TO GRANT A
..' CERTIFICATE OF APPEALABILITY • • • •
___ 11

II.

SUPREME COURT REVIEW IS APPROPRIATE BECAUSE
WILLIAMS MADE THE SHOWING REQUIRED FOR A
CERTIFICATE OF APPEALABILITY............................

18

1. Ineffective assistance of counsel in
failing to raise the newly discovered
evidence claim respecting the recantation
made by the state's primary witness........
19
2. Ineffective assistance of counsel in
failing to raise the interest of justice
claim on grounds that the real controversy
was ont fully tried.......................................... 29
CONCLUSION

33

iii

ITEMS CONTAINED IN APPENDIX
Appendix A (Seventh Circuit's Order denying Certificate
of Appealability Dated March 13, 2020)................
,A:1
Appendix B (District Court's Decision and Order
Denying Habaes Relief Dated April 30, 2019)....

B: 1

Appendix C (Wisconsin Court of Appeals Decision
Dated September 6, 2017)............................................

C: 1

TABLE OF AUTHORITIES
CASES
Barrientes v. Johnson, 221 F.3d 741 (5th Cir. 2000)... 17
Cage v. McCaughtry, 305 F.3d 625 (7th Cir. 2002)

17

Chanthakoummane v. Stephens,
816 F.3d 62 (5th Cir. 2016) ......................................

17

Cotton v. Cockrell, 343 F.3d 746 (5th Cir.2003).

17

Daniels v. Lee, 316 F.3d 477 (4th Cir.2003)........

17

Dockins v. Hines, 374 F.3d 935 (10th Cir. 2004).

.,. 14

Gonzalez v. Thaler, 132 S.'Ct. 641 (2012)............

12, 13

Harbison v. Bell, 556 U.S. 180 (2009)....................

13

Hohn v. United States, 524 U.S. 236 (1998)..........

13

Jennings v. Stephens, U.S. ____5
135 S. Ct. 793 (2015)77

13

Kimmelman v. Morrison, 477 U.S. 3655(1986)...

31

Miller-El v. Cockrell, 537 U.S. 322 ■/
). = .
(2003)
12, 13, 14, 16v 17, 18
Neder v. United States, 527 U.S. 1 (1993)........

23

Pabon v. Mahanoy, 654 F.3d 385 (3rd Cir. 2011)

16

Rohl v. State, 65 Wis.2d 683 (1974)....................

24

iv

Rowsey v. Lee, 327 F.3d 335 (4th Cir. 2003)...

18

Slack v. McDaniel, 529 U.S. 473 (200)................

12, 14

State v.

Avery, 213 Wis.2d 228 (Ct.

App. 1997)

.20

State v.

Davis, 337 Wis,2d 688 (Ct.

App. 2011)

29, 30

State v.

Griffin, 194 F.3d 808 (7th

Cir. 1999)

24

State v. Hicks, 202 Wis. 2d 150 (1996)...........

30

State v. Jenkins, 335 Wis. 2d 180 (2014)..........

23

State v. Love, 284 Wis2d 111 (2005)....................

20

State v. McCallum, 208 Wis.2d 464 (1997)..........

27

Stivarius v. Divall, 121 Wis.2d

145 (1984).;.

31

Strickland v. Washington , 466 U.S. 688 (1984)

23, 27

Tennard v. Dretke, 542 U.S. 274 (2004).............

15

Tomlin v. Britton, 448 F. App'x 224 (3rd Cir. 2011).... 14
CONSTITUTION, RULES AND STATUTES
U.S. Const, amend. XIV

2

28 U.S.C. §1254(1)....

2

28 U.S.C. §2101(c)....

2

28 U.S.C. §2253............

2, 3

28 U.S.C. §2253(b)....

3

28 U.S.C. §2253(c)(l).

12

28 U.S.C. §2253(c)(2).

12, 13, 14, 18

28 U.S.C. §2253(c)(3).

12

28 U.S.C. §2254............

i, 1,2 , 4, 11, 12

28 U.S.C. §2254(d)....

.. i, 12, 17, 33

28 Lu;S .C. §2254(d) (1) .

16

28 U.S.C. §2254(d)(2).

15

v

28 U.S.C. §2254(e)(1)........................................
28 U.S.C. §2255.................... ........... .. ........................

.15. .
11, 12

38ntiterrorism and Effective Dealth Penalty Act
Actoff 1996 (AEDPA), 110 Stat. 1214
.. 1,. 11-17'/ 27
Fed. R. App. P. 22(b)....................

.3, 10

Internal Operating Procedures 1(a)(1) (7th Cir.)... 18
Rule 11(a), Rules Governing Proceedings
Under 28 USSSC^. §2254............................. ..

4

S. Ct. Rule 10(a)............ ..............................

33 .
. 2

S. Ct. Rule 13.3,
Other Authorities

fable B-5...U.S. Court of Appeals Statistical Tables
For The Federal Judiciary (June 30, 2015), http://
www.uscourts.gov/statisics/b-5/s tatistical-tables
.11
-flderal-judiciary/2015/06/30.......... ..
Supreme Court, 2002 Term-Leading Cases
Federal Jurisdiction and Procedure,
117 Harv. L. Rev. 380 (2003)

v

vi ;fl
c

13, .14

IN THE
SUPREME COURT OF THE UNITED:'STATES

ANTONIO D. WILLIAMS,
Petitioner,
vs.
WILLIAM-J. POLLARD,
Respondent.
ON PETITION FOR WRIT OF CERTIORARI
TO THE SEVENTH CIRCUIT COURT OF APPEALS

PETITION FOR WRIT OF CERTIORARI

Petitioner Antonio D. Williams respectfully ask that
the court issue a writ of certiorari to review the final
order of the Seventh Circuit Court of Appeals, denying him
a Certificate of Appealability and thereby causing dismissal
of his appeal from the district court's denial of his haebes
petition pursuant to 28 U.S.C. §2254.

OPINIONS BELOW
The unreported Order of the Court of Appeals dated
March 13, 2020 is in appendix A (App. A:l).
The unreported Decision and Order of the District Court

I. 1

for the Eastern District of Wisconsin' dateld April 30, 2019,
denying Williams' petition for a writ of habaes corpus
pursuant to 28 0.-S.C. §2254 and denying him a Certificate
of Appealability, is in Appendix B (App. B:l-ll).
The unpublished opinion of the Wisconsin Court of
Appeals dated September 6, 2017, is in Appendix C (App. €3:135).

JURISDICTION
__

The Seventh Circuit Court of appeals denied Williams'

Motion for Certificate of Appealability on March 13, 2020.
This Court's jurisdiction is invoked under 28U.S.C. §1254(1)
& 2101(c) and Supreme Court Rule 13.3.
CONSTITUTIONAL PROVISIONS, STATUTES
AND RULES INVOLVED

The Right to Counsel Clause of the Sixth Amendmend to
the United States Constitution provides:
In all criminal prosecutions, the accused shall...have
the Assistance of Counsel for his defence.
U.S. Const, amend. XIV.
28 U.S.C. §2253 provides in pertinent part:
§2253. Appeal
(a)In a habaes corbus proceeding or a proceeding under
section 2255 before a district judge, the final order
shall be subject to review, on appeal, by the court of
appeals for the circuit in which the proceeding is held.
•/V

/V

*

(c)(1) Unless a circuit justice or judge issue a
certificate of appealibality, an appeal may not be taken
to the court of appeals from-2

(A) the final order in a habeas corpus proceeding
in which the detention coraplaind of arises out of
process issued by a State court; or
(B) the final order in a proceeding under section
2255.
(2) A certificate of appealabilty may issue under
paragraph (1) only if the applicant has made a substantial
showing of a denial of a constitutional right.
(3) The certificate of appealabilty under paragraph (1)
ghallnindicate-which .specific issue or issues satisfy the
showing required by.paragraph (2).
28 U.S.C. §2253.
Rule 22(b) of the Federal Rule of Appellate Procedure
proy .. I. . .
provides:
(b)Certificate of Appealability.
(1) In a habaes corpus proceeding in which the
detention complained of arises from process issued
by a state court, or in a 28 U.S.C. §2255 proceeding,
the applicant cannot take an appeal unless a circuit
justice or a circuit or district judge issues a
certificate of appealability under 28U.S.C. §2253(c).
If an applicant files a notice of appeal, the district
clerk must send to the court of appeals the certificate
(if any) and the statement described in Rule 11(a)
of the Rules Governing Proceedings Under 28 U.S.C.
§2254 or §2255 (if any), along with the notice of
appeal and the file of the district court proceedings.
If the district judge has denied the certificate, the
applicant may request a circuit judge to issue it.
(2) A request addressed to the court of appeals may
bebeonsidered by a circuit court judge or judges, as
the court prescribes. If no express request for a
certificate is filed, the notice of appeal constitutes
a request addressed to the judges of the court of
appeals.
(3) A certificate of appealability is not required
when a state or its representative or the United
States or its representative appeals.
Fed. R. App. P. 22(b)

3

Rule 11(a) of the Rules Governing Proceedings Under 28
U.S.C. §2254 provides:
(a) Certificate of appealabilty. The district court
must issue or deny a certificate of appealability
when it enters a final order adverse to the applicant.
Before entering the final order, the court may direct
the parties to arguements on whether a certificate
should be issued. If the court issues a certificate,
the court must state the specific issue or issues
that satisfy the showing required by 28 U.S.C. 2
§2253(c)(2). If the court denies a certificate, the
parties may not appeal the denial but may seek a
certificate from the court of appeals under Federal
Rule of Appellate Procedure 22. A motion to reconsider
a denial does not extend the time to appeal.
Rule 11(a), Rules Governing Proceedings Under 28 U.S.C. §2254.
STATEMENT OF THE CASE
This is an appeal from the denial of a federal habaes
petition under U.S.C. §2254 by a person in custody pursuant to
a Wisconsin state court judgement of conviction. The petition
claimed violation of Williams' constitutional right to effective
assistance of counsel under the Sixth Amenment to the United
States Constitution.
State Charges and Trial
Antonio D. Williams stands convicted of four counts of
first degree intentional homicide based on allegations that,
in the early morning hours of July 4, 2008 Williams', James
Washington, and Rosario Fuentez fired into an after hours
street party attended by members of the Murda Mobb, killing
four individuals. About a week earlier, members of the Murda
Mobb had assaulted and robbed Williams, allegedly providing

4

the.vimotive for the shooting. The states theory was that
Washington entered Questions nightclub, a Murda Mobb hangout,
to determine who was there before the shooting, and then the
three then fired into the crowd that subsequently left the
nightclub.
Only two purported eye-witnesses claimed to have actually
seen Williams involved in the shooting. First, seeking to reduce
his own exposure, Fuentez minimized his involvement(claiming
that he only shot a .45 handgun above the heads of the crowd)
andclaimed that Williams and Washington were involved and were
shooting "SKS assault rifle[s]". Second, although Xavier Turner
admitted to police shortly after the shooting that he did not
see who was involved, and others testified to the poor lighting
conditions making identification difficult, he changed his
story after being charged with an unrelated crime and claimed
that he could identify Williams as firing the rifle after all.
In it's attempts to connect Williams to the shooting, the
state also presented a number of other "cooperating witnesses"
who provided various accounts in similar efforts to mitigate
their own sentencing exposure for other offenses. Some claim
that Williams either "admitted" his involvement in the shootings
or made statements before the shootings that he sought revenge
against the Murda Mobb for the beating and robbery, while others
claimed that others attempted to bribe them to "lie" about his
non-involvement.

5

For instance, Demetrius Murrell, one of the state's
"cooperating witnesses", first admitted to police that he
never saw Williams with a rifle, but then claimed that :
Williams had stored two SKS assault rifles in his home for a
short time and that.the banana clips for a SKS rifle found in
his home by police belonged to Williams. He testified at the
preliminary examination that Williams never told him he shot
four people, but claimed at trial that Williams did say that.
The state also presented cell phone records of Fuentez,
Williams, and Washington, which it claim supported Fuentez's
story. Those records showed calls between Williams and

.

Washington at 11:47 p.m. on July 3, 2008 and 3:25a.m. on
July 4, from which the state speculated that they might have !
been together and involved in the dhoo.ting in the meantime.
The records also showed a series of calls between Williams .■>
and Fuentez between 11:41p.m. on July 3 and 2:27a.m. on July
4. The next call made from Williams phone was at 2:42.
The state's expert also testified that the cell tower
information for Fuentez calls was consistent with him being in
the general, multi-block area including the crime scene prior
to the shootings. That expert also testified that Williams'
phone was in that general area shortly before the shootings,
but was already some distance away as of 2:42a.m..
The 911 call came in at about 2:40a.m., and the first
officer on the scene heard shots from about 12 blocks away

6

at about 2:43a.m., and continued hearing shots as she drew ;
closer to the scene.
As relevent here, the state's ballistics expert
identified cartridges at the scene as having come from three
different guns: a .45 handgun and two different AK-type
assault rifles. None could have come from an SKS rifle.
The jury convicted Williams on all four counts and the
circuit court sentenced him to life without parole.
STATE POST-CONVICTION AND HABEAS - PROCEEDINGS.
Attorney Timothy Provis was appointed to represent
Williams on post-conviction proceedings. Provis moved for
new trial based on evidence that Fuentez had admitted before
trial that he falsely accused Williams to mitigate the
consequences of his own involvement and because he was upset
that Williams was unwilling to retaliate against the Murda
Mobb, as well as Fuentz's post-conviction admissions(both
sworn and unsworn) to the same effect, and that he had provided
information about the shootings to two of the state's
"cooperating witnesses". Provis also sought reversal based
on the recantation of another witness, the state's failure to
disclose certain evidence, and reversal in the interest of
justice becasuse the jury was denied evidence of Fuentez's
admissions that Williams was not involved in the shootings,
rrThe circuit court denied the brady claim without a hearing,
following a joint evidentiary hearing on Williams' newly

7

discovered evidence claims and those of his separately tried
co-defendant, James Washington, the circuit court denied
those claims as well in oral decision.
At the hearing, Fuentez initially asserted his Fifth
Amendment rights, explaining that he is "not participatin'
in none of this," because "[itjhey can charge me with whatever."
Fuentez

subsequently admitted under oath that the affidavit

swearing to Williams' lack of involvement in the homicides
were his, that the affidavit was truthful, and that he was
not threatened in any way to admit that his trial testimony
was false. He was scared, but from the Murda Mobb not the
defendants. However, given the risk of perjury charges and .
reopened federal charges,,he asserted his Fifth Amendment
privilege regarding questions about the substance of his
recantation.
Three other witnesses attested to the accuracy of their
affidavits stating that Fuentez had admitted to them, either
before the trials or afterwards, that neither Williams nor
Washington was involved in the homicides: Tremayne-Edwards
before trial; Dakeya Johnson before trial; and Leycester
Zissler before trial.
Detective James Hensley testified for the state, claiming
that, after being read his Miranda rights, Fuentez told him in
an unrecorded interview that he never admitted to lying about
the involvement of Williams and Washington prior to trial,
that his sworn recantations were false, that he signed the
affidavits because he feared for his life, and that his trial
8

testimony was true.
Following extensive briefing, the circuit court
issued it's oral decision denying Williams

motion on April

3, 2013.
Over Williams' objections, Provis chose to omit the newly
discovered evidence and related interest of justice claims on
the appeal, and the court of appeals affirmed on June 3, 2014.
State v. Antonio Williams, case No. 2013Ap814-cr. The Wisconsin
Supreme Court denied review on October 6, 2014.
Williams subsequently filed a state habeas petition in th
Wisconsin Court of appeals on December 28, 2015, alleging
ineffectiveness of Attorney Provis due to his failure to raise
the newly discovered evidence and related "interest of justice"
claims on appeal. After briefing, that court denied the petition
on September 6, 2017, without ordering a hearing. The Wisconsin
Supreme court denied Williams' timely-file petition for review
on January 8, 2018.
federal Habeas Proceedings
Williams timely filed a federal petition for a writ
of habeas corpus pursuant to 28 U.S.C. §2254 on January 1§
2018. Williams challenged the Wisconsin court of appeals
rejection of the arguement raised in his state habeas petition
(Knight Petition). Williams argued that his appellete counsel
was ineffective for failingto raise the issue of Fuentez's
recantation,on his direct appeal and in failing to raise
the issue that his judgement should be reversed in the

9

interest of justice.because the real controversy was not
fully tried.
By Decision and Order datedApril 30, 2019, the U.S.
District Court for the Eastern District of Wisconsin
rejected both of Williams' claims finding that"Williams has
not shown a reasonal probability that the recantationbissue
would have altered the outcome of his direct appeal had it
been raised"‘and that Williams position "falls short
of demonstrating that the court of appeals decision rests
upon factual findings that ignore the clear and convincing
weight of the evidence'.'. .Further, the district court denied
Williams a certificate of appealability finding that "jurists
of reason would not find it debatable that Williams is not
Entitled to habeas relief."
Williams subsequently filed a motion with the United
States Court of Appeals for the Seventh Circuit pursuant to
Fed. R. App. P.22(b) and 28 U.S.C. §2253(c) requesting a
cirtificate of appealability. The motion was denied based on
the finding of no substantial showing of the denial of a
constitutional right.

10

REASON FOR ALLOWANCE OF THE :WEIT

I
SUPREME COURT REVIEW IS APPROPRIATE TO
CLARIFY WHETHER FEDERAL COURTS SHOULD OR MUST
CONSIDER THE RESTRICTIVE STANDARDS FOR
GRANTING HABEAS RELIEF UNDER AEDPA
WHEN DECIDING WHETHER TO GRANT
A CERTIFICATE OF APPEALABILITY
Certiorari review is appropriate to resolve confusion
and a circuit split regarding what impact, if any, perceptions
regarding application of substantive statutory restrictions on
federal habeas relief should have in short-circuiting a habeas
petitioner's right to an appeal and full briefing on a
substantial claim that his or her conviction or sentence resulted
from the denial of a constitutional right.
Resolution of this conflict is of no small consequence to
habeas petioners and the courts. In the twelve months ending
June 30, 2015, the circuit courts denied certificates appealabilty
("GOA") and thus terminated appeals without full briefing
regarding 2,118 motions challenging federal sentences under 28
U.S.C. §2255, and 3,597 petitions challeging state covictions
or sentences under 28 U.S.C. §2254.

http:/www.uscourts.gov/

statistics/table/b-5/statistical-table-federal-judiciary/2015/
06/30
Under the Antiterrorism and Effective Death Penalty Act
of 1996,(AEDPA), 110 Stat. 1214, a habeas application "shall not
be granted" with respect to a claim the state courts adjudicated
on the merits unless the adjudicattion of the claim(1) resulted in a decision that was contrary to, or
involved an unreasonable application of, clearly
11

established Federal law, as determined by the
Supreme Court; or
(2) resulted in a decision that was based on an
unreasonable determination of the facts in light
of the evidence presented in the state court
proceeding.
28 U.S.C §2254(d).
Under AEDPA, a petitioner likewise may not appeal the
denial of a petition filed under 28 U.S.C. §2254 or 2255 to
the Court of Appeals unless he or she first is granted a
certificate of appealability ("COA") regarding each claim to
be appealed. 28 U.S.C. §2253(c)(l) & ($). The COA is a
jurisdictional prerequisite to an appeal. Miller-El v.
Cockrell, 537 U.S. 322, 335-36 (2003). "A prisoner seeking
a COA must prove something more than the absence of frivolity
or the existence of mere good faith on his or her part."
Id. at 338. Rather, to obtain a COA, the petitioner must..make
" a substantial showing of the denial of a constitutional
right". 28 U.S.C. §2253(c)(2). "The [Icertificate of
appealability] process screens out issues unworthy of judicial
time and attention and ensures that frivolous claims are not
assigned to merits panels." Gonzalez v. Thaler, 132 S. Ct.
641, 650 (2012).
This Court has resolved a number of issues regarding
application of the COA requirement. See, e.g., Hohn v. United
States, 524 U.S. 236 (1998) (Supreme Court has jurisdiction
to review denial of COA); Slack v. McDaniel, 529 U.S. 473
(2000) (COA requirement applies to appeals filed after its

12

effective date regardless of when the underlying habeas
petition was filed; setting standards for issuance of COA
when district court denied petition on procedural grounds);
Miller-El v. Cockrell , 537 U.S. 322 (2003) (COA is

i

jurisdictional prerequisite to habeas appeal and to be
resolved separately from decision on merits;, clarifying
standards for granting COA); HArbison v. Bell, 556 U.S. 180
(2009) (COA not required to appeal final order that does not
resolve merits of a habeas proceeding); Jennings v. Stephens,
135 S.Ct. 793(2015) (COA not necessary for habeas petitioner
to defend a favorable judgement on appeal); Gonzalez v.
Thaler, 132 S.Ct. 641 (2012) (COA that identifies procedural
issues but not substantive constitutional claim is not jn
jurisdictionally defective).
However, one issue that remains open, and which has

I

divided the lower courts, is what impact, if any, the
restrictive standards for granting habeas relief under AEDPA
should have when deciding whether the petitioner has made the
"substantial showing of the denial of a constitutional right"
required by §2253(c)(2) for issuance of the certificate of
appealabilty. See Supreme Court, 2002 Term-Leading Cases:
Federal Jurisdiction and Procedure, 117 HArv. L. Rev. 380,
386-88(2003)("Term-Leading Cases")
Under one of two possible interpretations, a habeas
petitioner may obtain a COA if reasonable jurists
could debate whether the petitioner's constitutional
rights had been violated. Under the other approach, COA
may be granted only if reasonable jurists could debate
whether the petitioner might be eligible for habeas
13

relief-i.e., in a case governed by §2254(d), whether
the statecourt's decision on the merits of the petitiner's
constitutional claim was unreasonable or ran contrary to
clearly established federal law.
Dbekinstv? :Hine§,'S374 F73d5935, 2937(ll©thCir . 2004) f'see
SS®Tin:.vi ?.Br.itton,.>.448;F:;; App 1 x224,:: 2 2 7 n. 3; i (3rdQir V, 2011).
The text of 28 U.S.C. §2253(c)(2), does not mention
AEDPA deference. That language omly requires a "substantial
showing of the denial of a constitutional right." Justice
Scalia thus aptly noted, concurring in Miller-El, that "[how]
the district court applied AEDPA has nothing to do with whether
a COA applicant has made 'a substantial showing of the denial
of a constitutional right'...so the AEDPA standard should
seemingly have no role in the COA inquiry." 537 U.S. at 349.
However, the majority opinion in Miller-El is vague and
internally inconsistent on this point. Term Leading Cases,117
Harv. L. Rev. at 386. on the one hand, that opinion held that,
"Consistent with our prior precedent and the text of the
habeas corpus statute, we reiterate that a prisoner seeking
a COA need only demonstrate 'a substantial showing of the
denial of a constitutional right.'28 U.S.C. §2253,(.C)(:2) ."
Miller-El, 537 U.S. at 327 (emphasis added). "A petitioner
satisfies this standard by demonstrating that jurists of
reason could disagree with the district courts' resolution
of his constitutional claims or that jurists could conclude
the issues presented are adequate to deserve encouragement
to proceed further."Id., citing Slack v. McDaniel, 529 U.S.
473,-484 (2000).
14

The majority opinion further stated that "[sJubsection
[12254(d)(2)] contains the unreasonable requirement and
applies to the granting of habeas relief rather than the
granting of GOA." Id. at 342. "The question is the debatability
of the underlying constitutional claim, not the resolution
of the debate." Id. at 342. "[Our] opinion in Slack held
that a COA does not require a showing that the appeal will
succeed. Accordingly a court of appeals should not decline
the application for COA merely because it believes the
applicant will not demonstrate an entitlement to relief."
Id. at 337.
At the same time, language in the opinion suggests a
very different inquiry, stating that the question should be
whether the District Court s application of AEDPA deference,
as stated in §2254(d)(2) and (e)(1), to petioner's...claim
was debatable amongst jurists of reason." 537 U.S. at 341.;
see id at 336 (We look to the District Courts application of
AEDPA to petitioner's constitutional claims and ask whether
that-resolution was debatable amongst jurists of reason").
Justice Scalia advocated for this approach. Id. at 348-50'
(Scalia, J., concurring).
The only other decision touching on the issue does not
resolve the confusion. In Tennard v. Dretke, 542 U.S. 247
(2004), the court on the one hand focused on the constitutional
claim, holding that "[a] COA should issue if has made a
substantial showing of the denial of a constitutional right."

15

Id. at 282, and quoting Slack for the applicable standard
of whether "reasonable jurists would find the district
court's assessment of the constitutional claims debatable
or wrong. If - Id., quoting Slack, 529 U.S. at 484. It also
noted that "[itjhe petitioner's arguments ultimately must be
assessed under the deferential standars required by 28 U.S.C.
§2254(d)(1)," id., but use of the term "ultimately" could
reference when the claims are reviewed on. the merits after
the COA is granted. The Court nonetheless considered and
discussed both the substance of the underlying constitutional
claim and the AEDPA limitations on habeas relief in holding
that the court of appeals had erred in denying a certificate
of appealability. It did so, however, without discussion of
the contrary language in Miller-El, and without stating

n.

whether the AEDPA discussion was necessary to its holding or
or merely supportive of its finding that the constitutional
claim was substantial. See id. at 288-89.
Not surprisingly, the unclear and apparently conflicting
language of Miller-El and Tennard have led to conflicting
interpretaions in the courts below. The third Circuit has
rejected the suggestion that the statutory standards for
granting habeas relief should mandate a more restrictive
standard for granting a COA than the statutory requirement
of "a substantial showing of the denial of a constitutional
right" under §2253(C) (21). Pabon v. Mahanoy

654 F. 3d 385,

16

X

392-93 & n.9 (3rd Cir. 2011) (relying on Miller-El's ;
recognition that the reasonableness requirements of §2254(d)
"appl[y] to the granting of habeas relief rather than to .
the granting of a COA." Miller-El, 537 U.S. at 342).
The Fifth Circuit, on the other hand, it appears to
follow its pre-Miller-El requirement that the petitioner's
COA request must be viewed "through the,;lens of the
deferential scheme laid out in 28 U.S.C. §2254(d)."
Chanthakoummane v. Stephens, 816 F.3d 62, 69 (5th Cir. 2016),
citing Barrientes v. Johnson, 221 F.3d 741, 772 (5th Cir.
2000). But see Cotton v. Cockrell, 343 f. 3d 746, 750-52 ,
(5th Cir. 2003) (granting COA on basis that "[reasonable .
jurists could debate whether a constitutional violation
occurred").
The Seventh and Tenth Circuits likewise merge the

:.

deferential standards of §2254(d) into the COA determination.
Cage v. McCaughtry, 305 F.3d 625, 626 (7th Cir. 2002)

;

(vacating COA as improperly granted given absence of u'.
controlling Supreme Court authority necessary to staisfy
AEDPA standards); Dockins, 374 F.3d at 938 ("we now reach
this issue and hold that AEDPA's deferential treatment of
state court decisions must be incorporated into our
consideration of a habeas petitioner Vs request for COA' )
Fourth Circuit cases conflict on this point. Compare
Daniels v. Lee, 316 F.3d 477, 493 (4th Cir. 2003) (denying
COA because state court decision was neither contrary to

17

to nor unreasonable application of controlling Supreme Court
precedent), with Rowsey v. Lee, 327 F.3d 335, 340-41 (4th
Cir. 2003) (granting COA based on substantial nature of
constitutional claims while reserving application of AEDPA
deference for the evaluation of the claims on the merits).
Consistent with its practice, Internal Operating i:>.
Procedures 1(a)(i) (7thCCir>), two judges of the Seventh
Circuit heard and summarily denied Williams COA motion,
stating only that they "find no substantial showing of denial
of a constituional right." (A:l). Accordingly, it is
impossible to know what deficiencies they perceived in Vi
Williams' request. However, because Williams made more than
a showing of the denial of a .constitutional right,"
II
SUPREME COURT REVIEW IS APPROPRIATE BECAUSE
WILLIAMS MADE THE SHOWING REQUIRED FOR A
CERTIFICATE OF APPEALABILITY
Certiorari review is also appropriate because, contrary
to the lower courts' holdings, Williams has made the
"substantial showingof the denial of a constitutional right"
which is both necessary and sufficient for issuance of the
COA. See Miller-El, 537 U.S. at 327("prisoner seeking a COA
need only demonstrate a substantial showing of the denial of
a constitutional right." 28 U.S.C. §2253(c)(2). A petitioner
need only show that "jurists of reason could disagree with
the district court's resolution of his constitutional claims
or that jurists could conclude the issues presented are
adequate to deserve encouragement to proceed further." Id.
(citation omitted).
18

1* Ineffective assistance of counsel in failing
to raise the Newly Discovered Evidence claim
respecting the recantation made by the state's
primary witness.
The lower courts also erred in denying Williams COA on
his ineffective assistance of counsel claim based on counsel's
oversight in failing to raise the newly discovered evidence
claim on Williams appeal. Attorney Timothy Provis represented
Williams in postconviction proceedings. Provis moved for a new
trial based on evidence that the state's primary witness
(Fuentez) had admitted before trial that he falsely accused
Williams in order to mitigate the consequences of his own
involvement in the crime, and because he was upset that
Williams was unwilling to retaliate against the Murda Mobb.
Williams' motion was further based on postconviction admissions
(both sworn and unsworn) by Fuentez that he had falsely accused
Williams and that Williams -was not in any way involved in_the ;
crimes at issue. Provis sought reversal based on other grounds
as well (none of which went into Williams'actual innocence).
Following an evidentiary hearing, The circuit court
ordered briefings. Provis submitted a brief which identified
the correct legal standard and correctly argued that because
Funtez's recantation and admissions were not "incredible" as
a matter of law. (i.e. in conflict with nature,etc.), it was
for the

jury and not the court to weigh the evidence

(including Fuentez's recantation) in determining whether
Williams was guilty of the charged crimes.

19

There was no dispute in the lower courts that Williams
had satisfied all of the requirements -necessaryi ctoppareval k ion
a newly discovered evidence claim, with the sole exception
being the fifth requirement which requires a showing that "a
reasonable probability exists that a different result would
be reached at trial." State v. Avery, 213 wis. 2d 228

234-37,

570 N.W. 2d 573 (Ct. App. 1997). a reasonable probability of
a different result exists if there is a reasonable probability
that a jury, looking at the old evidence and the new evidence,
would have a reasonable doubt as to the defendant's guilt.
State v. Love, 284 Wis. 2d 111, 700 n.W.W-62 (2005). The o i l.
parties and the lower courts agreed that this represented well
settled law in the state of Wisconsin.
Although Williams had presented solid evidence of six
occasions on which Fuentez admitted that Williams infact was
not involved in the shootings.The circuit court relied on its
personal belief that Fuentez's trial testimony was "more
credible" than his pretrial admissions and post-trial
recantations and therefore concluded that there existed no
reasonable probability of a different result. The court also
confused a finding that Fuentez's recantation testimony was
"very isubpect^swithf a-.finding-.bhaththe-rtestimony -was: "incredible" as a matter of law. The court compared credibility
noting that, although Fuentez had motive from the beginning
to falsely accuse Williams, "the evidence is significant to
support the accusation piece of this in contrast to

20

the recantation."
Even seperate from applying that "relative credibility
standard, the court repeatedly asserted its personal view
that thec-.eviden©e5fr.o.mi’Ey^i36g was not particularly Credible
("I didn't find his recantation credible..."; " I did not
find it to be credible based on body language, the guarded
way in which Mr. Fuentez answered questions, the guarded way
he was acting. And he made statements to Detective Hensley,
according to Hensley, that were directly contrary to what he ,
said [at the postconviction hearing]" ; "I think Detective
Hensley [sic] is credible... I believe Detective Hensley
[ic] that Mr. Fuentez had mad those statements to him, and
I don't believe he made it up"; "We have Detective Hensley
testimony which I do find credible...").
It is undisputed that Williams insisted to Provis that
he raise the "newly discovered evidence" and "interest of
justice" issues on appeal since they were firmly supported
by the record and by established law.that bars the court from
relying on its own credibility findings when assessing whether
there exists a reasonable probability of a different result
(

principle of law correctly argued by Provis in his

postconviction brief). Provis nonetheless refused to raise
the claims, citing his belief that the circuit court's .
credibility findings would be deemed controlling by the
court of appeals.(even though such a determination would be
incongruent with the law). Instead, Provis raised far weaker

21

claims that had no chance of success.
The Wisconsin court of appeals decided that Williams
was not prejudiced by Provis' failure to appeal the newly
discovered evidence claim, concluding that the circuit
court findings were not clearly erroneous in discrediting
Fuentez's numerous statements and accusation. However,
the court of appeals

conclusion is irrational in light

of the controlling legal standard which focuses, not on
whether the circuit court believed Fuentez's statements and
recantation,bbfctonnwhether a jury reasonbly could credit
them sufficieftliyftoreaiseaaTreasonableodoubt.
The Wisconsin Court of Appeals adopted its holding from
the appeal of Williams' co-defendeant, James Washington.
According to that court (Washington)appellete court),
"the circuit court determined that Fuentez's recantation
was not credible," this factual finding was not clearly
erroneous, and Williams accordingly failed to show a
reasonable probability of a different result based on
Fuentez's recantation.
However.,- that is not what the circuit court actually
found. As noted above, the circuit court found that the ~
evidence supporting Williams' motion "was not as credible"
as Fuentez's trial testimony. There is a major difference
between evidence that is "not as credible" as trial evidence
and evidence that is "incredible'as a matter of law".

22

Even established Wisconsin law holds that when assessing
whether there exists a reasonable probability of a different
result, "a circuit court may not substitute its judgement for
that of the jury in assessing which testimony would be more
or less credible. "State v. Jenkins, 335 Wis. 2d 180, 848
N.W. 2d 786 (2014).
The requirement to focus on the potential impact of
evidence on a reasonable juror rather than the impact on a
particular judge is exactly what the United States Supreme
Court has established. E.g. Neder v. United States, 527
U.S. 1, 19(1999) (where the defendant contested the issue
affected by the error, and the evidence viewed most favorably
to the defendant supports his ttheory, litiisffor i:bhejj:.uryfcto
determine whether to believe it); Strickland v. Washington,
466 U.S. 688, 695 (1984) (assessment of prejudice "should
not depend on the idiosyncracies of the particular decision­
maker") ..Just as with appellate review of challenges to
evidentiary sufficiency, an objective standard is necessary
for harmless error or resulting prejudice so that reviewing
judges do not succomb to the temptation to substitute their
subjective views on the evidence for the views of the jury.
Assuming that the Wisconsin Court of Appeals intended
to comply with controlling Wisconsin and United States
Supreme Court authority requiring focus on the potential
impact on a reasonable juror rather than on the idiosyncracies
of a particular judge, then the court's assertion that the

23

circuit court's credibility findings were not "clearly
erroneous" is

patently unreasonable. Whatever any individual

juror may decide, nothing about Fuentez's statements or .
recantation is incredible as a matter of law, i.e., "in
conflict with...nature or with fully established or conceded
facts," ROhl v. State, 65 Wis2d 683, 695, 223, N.W.2d 567
(1974); see United States v. Griffin, 194 F.3d 808, 817
(7th Cir. 1999) (court will substitute its credibilty findings
for that of the jury only where evidence is incredible as
a matter of law, i.e., that "it would have been physically
impossible for the witness to observe what he described,
or it was impossible under the law of natureifor those events
to have occurred at all.").
Despite the personal views of the particular circuit
court in this case, there is nothing inherently i-iharantlj
preventing a reasonable juror from crediting Fuentez's many
admissions to Williams lack of involvement. Any conclussion
that a reasonable jury could not credit Fuentez's admissions
sufficient to create a reasonable doubt necessarily would
be irrational. While the circuit court attributed Fuentez's
demeanor and the assertion of his Fifth Amendment rights at
the hearing to his being threatened to falsely recant, a
reasonable jury easily could credit his testimony, that he
was not threatened in any way by the defendants. That jury
also reasonably could determine that Fuentez's demeanor and
resistancy was attributed to his expressed concern that, by

24

telling the in the affidavits and at the hearing, he subjected
himself to potential perjury charges and reopened federal
charges.
The jury could also reasonably reject the circuit

^

court's theory that the details of Fuentez's trial testimony
made his original accusation against Williams more credible
than the recantation. Such a jury could reasonably determine
that Fuentez's details in discribing the shooting merely
resulted from his own involvement and did nothing to
discredit his admission that Williams was not with him.
Fuentez made the, admission to many different people, both
before and after trial, and under many different circumstances.
Indeed, those admissions are corroborated rby'. the ^physical
evidence that Williams cellphone was several blocks away from
the scene and that, while the state allegedly connected '/
Williams to an SKS rifle, the shells found at the scene could
not have come from that rifle.

Moreover, Detective Hensley

had a motive to falsify his questioning of Fuentez and
nonetheless chose not to record it. This too could lead a
reasonable juror to accept Fuentez statements over Detective
Hensley, including his testimony that he did not fear harm
from Williams, but feared harm from the Murda Mobb, as well
as possible perjury charges.

Add to this the fact that every

witness who claimed that williams was at the scene or made
some incriminating statement was seeking to mitigate the

25

conseqi}ences of his own wrong-doings, and thus was inherently
unreliable. See Goodman v. Bertrend, 467 F;3d 1022,
1030 (7thCir.,2006) ("Where the state's case consists
chiefly or solely upon the word of an accomplice... court's
have recognized the great importance to the defendant of
evidence of direct connection or material corroboration from
other sources'.').
Because there is no basis on which the state circuit
court could reasonably conclude that the jury would
necessarily discredit Fuentez's many admissions, the State
Court of appeals decision rests on an unreasonable finding
of fact.
Like the state court's, the federal district court's
decision makes no sense.The question is not whether the
state circuit court's personal credibility findings were
reasonable, but whether those personal credibility findings
reasonably support the factual conclusion required to
support the state court's holding, i.e., that the new
evidence is so incredible that no reasonable jury could
accept it. (If the jury accepted it, it would obviously
lead to a finding of reasonable doubt). Moreover, it has
been well established that the jury would not necessarily
have to believe the recantation to find reasonable doubt:
"The issue is not even whether the recantation .
is true or false"
"The issue is not whether the jury could accept
the recantation as true, or even whether the
jury could believe it. A jury does not have to
26

accept the recantation as true in order to
have reasonable doubt."
"The issue is whether there is a reasonable
probability that a jury, looking at both the
accusation and the recantation, would have a
reasonable doubt as to the defendant's guilt."
State v. McCallum, 208 Wis.2d 464, 561 N.W.vl2d
707 (1997).

■ 1

Nothing in this case supports the suggestion that the
new evidence is "incredible as a matter of law." Although
the district court denigrated as irrelevant Williams',
showing of "why each finding the court of appeals made as
to the [resulting prejudice] factor could have been viewed
differently by the jury", that is exactly the factual
analysis that a rational court must apply in assessing
whether evidence creates a resonable probability of a
different result. And again, we must presume that the,
state courts intended to follow the law. Strickland, 466
U.S. at 694.
However, it is irrational as a matter of fact to
equate the circuit court's personal credibility findings
with

a conclusion that no reasonable jury could deem

FuentezVs pretrial admissions and sworn recantations
sufficiently credible to create a reasonable doubt. By
doing so, the state court (and the federal district court)
necessarily relied upon unreasonable findings of fact.
The district court overlooked the central reason
why the state court of appeals' decision denying Williams
ineffectiveness claims rested on unreasonable findings of
fact and thus is not entitled to deference under the AEDPA.

27

The evidence it relied upon-the circuit court's personal
credibility findings- did not rationally support its
conclusion that no reasonable jury could credit the new
evidence sufficiently to create a reasonable doubt, and
nothing else in the record did either.
That error impacts the merits of Williams claims in
addition to overcoming defernce to the state court's
under AEDPA. Williams' appellate counsel epitomized
deficient performances (prong one of IAC test under
Strickland) by unreasonably forgoing winner issues going
directly

to Williams' innocence in favor of frivolous

or nearly frivolous issues merely picking around the
periphery of the states' case against him. Counsel's
failures prejudiced Williams (prong two of IAC test under
Strickland) because a reasonable jury easily could credit
the newly discovered evidence of Williams' innocence and
find a reason to doubt the state's evidence.

In other words,

a jury hearing both the old evidence and themew evidence
would have a reasonable doubt respecting guilt.
Contrary to the district court's conclusion, therefore,
Williams has made "a substantial showing of the denial of a
constitutional right." Reasonable jurists could, and no doubt
would , find debatable thfe lower courts' irrational focus
on the personal credibility findings of the circuit court
rather than on a proper application of the facts to the

28

to the appropriate legal standard.
2. Ineffective Assistance of Counsel in failing
to raise the interest of justice claim on
grounds that the real controversy was not
fully tried.
The lower courts also erred in denying

Williams a

COA on his ineffective assistance of counsel claim based
on counsel’s oversight in failing to raise the interest
of justice ground on appeal. Provis failure to raise the
interest of justice ground cannot be reasonably explained
or justified. A competent appellate attorney, acting
reasonably, would recognize that Williams' case closely
tracks the 2011 case where the Wisconsin court determined
that the real controversy was not fully tried because the
jury did not hear the testimony that the accusations of the
state's primary witness were false. State v. Davis, 337
Wis.2d 688, 808 N.W.2d 130 (Ct. App 2011). Therefore,
Provis failure to raise the issue constitutes deficient
performance.
Williams was prejudiced by Provis' deficient
performance because, had Provis raised the issue and
had the court of appeals applied the same legal reasoning
as was applied by the court in Davis, the outcome of
Williams appeal would have been different. Here, as in
Davis, the primary evidence against Williams consisted
of the testimony of an alleged co-participant in the
crime. Here, as in Davis, the new evidence consisted'of
admissions by the co-participant to others that Williams

29

in fact was: not involved.
ii

The case for reversal in the interest of justice is eve

even stronger here than in Davis. Unlike Davis, the
co-participant here admitted to Williams' non-participation
both before trial ;:and tinder oath after trial, while Davis
accuser did not recant by affidavit or in court. Also, while
Davis allegedly confessed his involvement to police, the
state presented no evidence that Williams did so:..The court
of appeals in Davis nonthelessheld that "the evidence which
the jury should have heard, but did not, made it impossible
for the jury to weigh all appropriate factors in considering
the importance of Davis' properly admitted confession."
Id., para. 34.
The court of appeals in Wisconsin has the statutory
authority to reverse in the interest of justice when the
real controversy has not been fully tried. Sec. 752.35, Wis.
stat. Reversal in the interest of justice is justified when,
as here, "the jury was erroneously not given the opportunity
to hear important testimony that bore on an important isssue
of the case." State v. Hicks, 202 Wis.2d 150, 160, 549 *
N.W.2d 435 (1996)..
In the postconviction motion filed on behalf of Williams,
Provis correctly and prudently demonstrated that Fuentez's
various admissions to Williams' lack of involvement in the
homicides justified reversal.in the interest of justice
o. ^. £ _

:■: .,c

/ : /, ,o

j

30

under sec. 752.35, Wis. Stat. because the absence of those
admissions before-the jury prevented the real controversy
from being fully tried. While the case for reversal in the
interest of justice was strong, Provis inexplicably failed
to renew that request on appeal, focusing instead on far
weaker issues that had no realistic chance for success. It
appears that he did so based on the same view that the
circuit court's credibility findings would be agreed with
by the appellate court, a view that is demonstrably
unreasonable for the reasons stated in Section II 1, supra.
It may also be that Provis believed that he could only
raise the interest of justice claim by asserting that the
circuit court erroneously exercised it's discretion by
denying his postconvictioh motion raising that claim. Such
a perception likewise would have been unreasonable because
the appellate court may exercise its discretion to grant
a new tial in the interest of justice under sec. 752.35,
Wis. Stat. regardless of whether the circuit court

.o

erroneously exercised its discretion in denying a similar
motion. Stivarius v. Divall, 121 WisV.2d 145, 358 N.W.2d,
530 (1984). Ignorance of well-established legal principles
is unreasonable and deficient performance. Kimmelman v.
morrison, 477 U.S. 365, 385 (1986)
The only issue in dispute here is concerned and
concerns whether a reasonable jury could credit Fuentez*
st a’".

31

statements and recantation sufficiently to create a
reasonable doubt, and therefore, a reasonable probability
of a different result. The circuit court expressed its own
personal beliefs about Fuentez's demeanor on the stand,
and the credibility of a police officer who offered :
testimony countering that of Fuentez, in expressing question
on the part of the court respecting the credibilty of
Fuentez's recantion.In essence, the circuit court enunciated
its reasons to disbelieve Fuentez's recatation over his trial
testimony. But as demonstrated, the standard for the court
was whether a reasonable jury(which may have reached a
different credibility findings about Fuentez's demeanor, the
police officer, etc.) could have reasonable doubt about
Williams' guilt. And, of course, if a reasonable jury
reached different credibility findings, the nature of the
recantation was such that it would be reasonable for that
jury to find reasonable doubt about Williams' guilt(because
Fuentez stated that his previous testimony implicating
Williams was untruthful and that Williams was not even
present at the time of the shooting- as corroborated by the
cellphone tower and tfoe^iafesehcer.ojf aimy: - Co nhe'ctd on t o _ _ .th e
shells, found at the scene))
Mr. Williams was not required to convince the federal
district court or the Seventh Circuit Court of Appeals to
reverse the conviction in order to obtain a Certificate of
Appealability. While Williams steadfastly maintains that

32

his claims are fully supported by both controlling
authority and the facts, they are, at a minimum, open
to dispute anong reasonable jurists. Because a reasonable
jurists could reach a contrary conclusion, Williams is
entitled to the requested Certification of Appealability.

Moreover, until this Court resolves the conflict
regarding the deferential requirements of §2254(d) in respect
to the "substantial showing" requirement, a petitioner's
right to obtain federal habeas relief will turn, not on the
claim, but on the luck of which appellate court hears the
request. Review accordingly is appropriate. S.Ct. Rule
10(A).

CONCLUSION
For the reasons Stated, the Court should grant a
writ of certiorari to review the decision of the Seventh
Circuit Court of Appeals.

Dated this

day of

d

c - jt

Antonio D. Williams

33

, 2020..

